CERTIFICATE OF WORD COUNT
NO. 20-1589
Kris Kaszuba, dba Hollywood Group,
Petitioner,
v.
Drew Hirshfeld, Acting Under Secretary of Commerce for Intellectual Property and Director, |
United States Patent and Trademark Office,
Respondent.

STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Kris Kaszuba, DBA
Hollywood Group Supplemental Brief of Petitioner contains 922 words, including the parts
of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas'DeDeus
September 22, 2021

SCP Tracking: Kaszuba-Hollywood Beer ©-Cover Tan

